APPENDIX "A"
Case 4:19-cv-00348-MAC-CAN Document 13 Filed 08/16/19 Page 14 of 21 PagelD #: 8‘i

alleging an error in a grand jury proceeding must be filed in advance of trial. Fed. R.
Crim. P. 12(b)(3)(A)(v). 'Likewise, a motion regarding a defect in discovery must be7
. filed pretrial.) Fed. R. Crim. P. 12(b)(3)(E). Neither motion was filed prior to
Rutherford’s guilty plea, nor were the issues raised on appeal.
Accordingly, to prevail, Rutherford must demonstrate both cause and actual
prejudice. The Petition fails to do so. Regarding the allegedly improper grand jury
testimony, Rutherford cites to testimony about the statements that he made to the
interviewing officer during the execution of the search warrant. Memo p.2. Rutherford
broadly claims that he never made such statements and references his recorded interview.
Id. However, those statements are largely reflected in the Factual Basis Rutherford
adopted both verbally and in writing, as well as in the PSR. ECF #56, 76110.
Moreover, the government produced a transcript of Rutherford’s interview to the defense
for trial, which similarly supports this testimony. Rutherford provides no basis for
finding that these statements were incorrect and, even if true, he fails to demonstrate how
that grand jury testimony prejudiced his case, especially in light of his decision to plead
guilty and admit to the same facts during his plea colloquy.3
Similarly, Rutherford’s Petition contains a lengthy discussion of the Brady
doctrine and its requirements, but with respect to his own claim, states only “Petitioner

3 Ground Three suggests that Edgett was ineffective for failing to file a motion to compel the
government to produce materials in accordance with the Jencks Act, 18 U.S.C. § 3500, et seq.,
including the grand jury testimony he cites in Ground One. Memo p.3. The government
respectfully submits that all Jencks Act material was provided to the defense, in accordance with
the Pretrial Discovery Order and the statute. Indeed, Rutherford’s citation to this very testimony
indicates that he also has a copy of these materials. Given that Edgett received the Jencks Act
materials on behalf of the defense, it is unclear to the government how he was deficient or what
“motion to compel” he purportedly should have filed.
14

Case: 20-40079

Document: 00515535329

Page: 2

Date Filed: 08/20/2020

APPENDIX nB"
No. 20-40079

quotation marks and citation omitted). Mandamus is a possible remedy when
the district court has unduly delayed in ruling on a case. See Will v. Calvert
Fire Ins. Co., 437 U.S. 655,661-62 (1978) (holding that, where a district court
persistently and unreasonably fails to adjudicate a case, the court of appeals
may issue a writ of mandamus in order to exercise its appellate jurisdiction).
Rutherford’s case has been referred to a magistrate judge. In
expanding the duties of magistrate judges under 28 U.S.C. § 636(b),
“Congress made clear that... the magistrate [judge] acts subsidiary to and
only in aid of the district court. Thereafter, the entire process takes place
under the district court’s total control and jurisdiction.” United States v.
Raddatz, 447 U.S. 667, 681 (1980). Thus, this court neither monitors nor
supervises the work of United States magistrate judges to whom cases are
referred under § 636(b). If Rutherford is dissatisfied with the magistrate
judge’s handling of his case, he should direct his complaints to the district
court judge, in this case Judge Crone.
In any event, in Rutherford’s case, there has been no undue delay.
Rutherford’s § 2255 motion was date-stamped as filed on May 10, 2019.
After the magistrate judge ordered the Government to answer, Rutherford,
in July 2019, filed his first motion for immediate release and a motion for
summary judgment. The Government responded to Rutherford’s § 2255
motion on August 16, 2019, and in an order entered August 21, 2019, the
district court denied Rutherford’s motions for immediate release and for
summary judgment. Rutherford’s second motion for immediate release was
date-stamped as filed October 4, 2019. The magistrate judge denied the
motion, and this court dismissed Rutherford’s interlocutory appeal from the
denial of the motion for lack of jurisdiction on December 13, 2019. United
States v Rutherford, No. 19-40960 (5th Cir. Dec. 13, 2019) (unpublished).
Rutherford filed a second motion for summary judgment, date-stamped as
filed on November 4, 2019, and a third motion for immediate release, date-

2

Case 4:17-cr-00041-MAC-KPJ . Document 119 Filed 12/15/20 Page 5 of 5 PagelD #: 686
APPENDIX "C"
pro se motions, affidavits, or requests for relief in this court without the advance written
permission of a judge of this court. See, e.g., In re Johnson, 20-40328 (5th Cir. Oct. 20, 2020);
United States v. Andrade, 134 F.3d 368 (5th Cir. 1997).
IV.

Conclusion
Consistent with the foregoing analysis, Rutherford’s Expedited Motion for Compassionate

Release (#117), Application to Proceed Without Prepayment of Fees (#113), and Motion to
Dismiss Indictment (#115) are DENIED. It is further ORDERED that Rutherford must seek leave
; of court before filing any future pro se motions. Any pro se filings made without leave of court
will be rejected by the clerk and not considered by the court. The clerk of this court is directed
. to return to Rutherford, unfiled, any attempted submissions inconsistent with this bar.
SIGNED at Beaumont, Texas, this 15th day of December, 2020.

'jTUto*.

Ohmju

MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

5

1

Case: 20-40079

Document: 00515591447

Page: 1

Date Filed: 10/06/2020

fHntfeb States! Court of Appeals:
for tfje Jftftf) Circuit
No. 20-40079

In Re: Bruce Allen Rutherford, also known as Allen Bruce
Rutherford,
Petitioner.

Petition for a Writ of Mandamus
to the United States District Court
for the Eastern District of Texas
USDC No. 4:19-CV-348
USDC No. 4:17-CR-41-1

Before Costa, Duncan, and Oldham, Circuit Judges.
Per Curiam:
This panel previously GRANTED petitioner’s motion for leave to
proceed IFP, and further DENIED the motion for immediate release
pending disposition of his § 2255 motion and the petition for writ of
mandamus; and DENIED as MOOT, the request for a ruling on the
mandamus petition. The panel has considered Petitioner's motion for
reconsideration of the denial of the motion for release pending disposition of
his § 2255 motion and the petition for writ of mandamus.
IT IS ORDERED that the motion is DENIED.

Case: 20-40079

Document: 00515591447

Page: 1

Date Filed: 10/06/2020

QUmteb States! Court of Appeals
for tfjc Jftftf) Circuit
No. 20-40079

In Re: Bruce Allen Rutherford, also known as Allen Bruce
Rutherford,
Petitioner.

Petition for a Writ of Mandamus
to the United States District Court
for the Eastern District of Texas
USDC No. 4:19-CV-348
USDC No. 4:17-CR-41-1

Before Costa, Duncan, and Oldham, Circuit Judges.
Per Curiam:
This panel previously GRANTED petitioner’s motion for leave to
proceed IFP, and further DENIED the motion for immediate release
pending disposition of his § 2255 motion and the petition for writ of
mandamus; and DENIED as MOOT, the request for a ruling on the
mandamus petition. The panel has considered Petitioner's motion for
reconsideration of the denial of the motion for release pending disposition of
his § 2255 motion and the petition for writ of mandamus.
IT IS ORDERED that the motion is DENIED.

°0-40079

Document: 00515535329

Page: 1

Date Filed: 08/20/2020

®ntteb States Court of Sppeate
V True Copy
for tfic Jftftf) Circuit
Certified order issued Aug 20, 2020
W. 0

a

Court of Appeals, Fifth Circuit

No. 20-40079

In Re: Bruce Allen Rutherford, also known as Allen
Bruce Rutherford,
Petitioner.

Petition for a Writ of Mandamus to the
United States District Court for the
Eastern District of Texas
USDC No. 4:17-CR-41-1
USDC No. 4:19-CV-348

Before Costa, Duncan, and Oldham, Circuit Judges.
Per Curiam:
Bruce Allen Rutherford, federal prisoner # 27006-078, has filed in this
court a pro se petition for a writ of mandamus, a motion requesting leave to
file his mandamus petition in forma pauperis (IFP), a request for a ruling on
his mandamus petition, and a motion for immediate release. The motion to
proceed IFP is Granted.
In his petition, Rutherford complains of delay in the adjudication of
his 28 U.S.C. § 2255 motion. “Mandamus is an extraordinary remedy that
should be granted only in the clearest and most compelling cases.” In re
Willy, 831 F.2d 545, 549 (5th Cir. 1987). A party seeking mandamus relief
must show both that he has no other adequate means to obtain the requested
relief and that he has a “clear and indisputable” right to the writ. Id. (internal

Case: 20-40079

Document: 00515535329

Page: 2

Date Filed: 08/20/2020

No. 20-40079

quotation marks and citation omitted). Mandamus is a possible remedy when
the district court has unduly delayed in ruling on a case. See Will v. Calvert
Fire Ins. Co., 437 U.S. 655, 661-62 (1978) (holding that, where a district court
persistently and unreasonably fails to adjudicate a case, the court of appeals
may issue a writ of mandamus in order to exercise its appellate jurisdiction).
Rutherford’s case has been referred to a magistrate judge. In
expanding the duties of magistrate judges under 28 U.S.C. § 636(b),
“Congress made clear that... the magistrate [judge] acts subsidiary to and
only in aid of the district court. Thereafter, the entire process takes place
under the district court’s total control and jurisdiction.” United States v.
Raddatz, 447 U.S. 667, 681 (1980). Thus, this court neither monitors nor
supervises the work of United States magistrate judges to whom cases are
referred under § 636(b). If Rutherford is dissatisfied with the magistrate
judge’s handling of his case, he should direct his complaints to the district
court judge, in this case, Judge Crone.
In any event, in Rutherford’s case, there has been no undue delay.
Rutherford’s § 2255 motion was date-stamped as filed on May 10, 2019.
After the magistrate judge ordered the Government to answer, Rutherford,
in July 2019, filed his first motion for immediate release and a motion for
summary judgment. The Government responded to Rutherford’s § 2255
motion on August 16, 2019, and in an order entered August 21, 2019, the
district court denied Rutherford’s motions for immediate release and for
summary judgment. Rutherford’s second motion for immediate release was
date-stamped as filed October 4, 2019. The magistrate judge denied the
motion, and this court dismissed Rutherford’s interlocutory appeal from the
denial of the motion for lack of jurisdiction on December 13, 2019. United
States v Rutherford, No. 19-40960 (5th Cir. Dec. 13, 2019) (unpublished).
Rutherford filed a second motion for summary judgment, date-stamped as
filed on November 4, 2019, and a third motion for immediate release, date-

2

Case: 20-40079

Document: 00515535329

Page: 3

Date Filed: 08/20/2020

No. 20-40079

stamped as filed on January 8,2020. In an order entered March 18,2020, the
district court denied both motions, and on June 26, 2020, this court
dismissed Rutherford’s interlocutory appeal from the denial of summary
judgment for lack of jurisdiction, denied release on bail pending appeal
because he had not made the required showing, and affirmed the district
court’s denial of release on bail pending the disposition of the § 2255 motion
on the same basis. United States v. Rutherford, 810 F. App’x 375 (5th Cir.
2020).
Rutherford’s § 2255 motion is under active consideration in the
district court. To the extent that Rutherford disagrees with that court’s
handling of his case, he may argue any such issue once final judgment is
entered, either in a motion for a certificate of appealability or, if it is granted,
on appeal. Mandamus relief is not appropriate.
The petition for a writ of mandamus is Denied. Rutherford’s motion
for immediate release pending disposition of his § 2255 motion is Denied.1
His request for a ruling on his mandamus petition is Denied as Moot.

1 Although Rutherford makes a conclusory assertion in his request for
release that he is at high risk of COVID-19, he does not cite this as a basis for
release but instead appears to seek expedited consideration of his release
request on this ground. As in his interlocutory appeal, he fails to satisfy the
grounds for release. See Rutherford, 810 F. App’x at 375.

3

Case 4:19-cv-00348-MAC-CAN Document 28 Filed 03/18/20 Page 1 of 1 PagelD #: 141

UNITED STATES DISTRICT COURT

EASTERN DISTRICT OF TEXAS

BRUCE ALLEN RUTHERFORD #27006-078 §
§

versus

§
§

UNITED STATES OF AMERICA

§

CIVIL ACTION NO. 4:19-CV-348
CRIMINAL ACTION NO. 4:17-CR-41(1)

ORDER
The above-entitled and numbered civil action was referred to United States Magistrate
Judge Christine A. Nowak, who issued a Report and Recommendation concluding that Movant’s
motion for summary judgment and motion for immediate release (Dkt. ##21, 26) should be
denied. Movant did not file objections. Having reviewed the Report and Recommendation, the
Court concludes that the findings and conclusions of the Magistrate Judge are correct, and adopts
the same as the findings and conclusions of the Court.
It is therefore ORDERED that Movant’s Motions for Summary Judgment (#21) and
Immediate Release (Dkt. #26) are DENIED.
SIGNED at Beaumont, Texas, this 18th day of March, 2020.

'yTUuu.
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

Case 4:19-cv-00348-MAC-CAN Document 27 Filed 02/24/20 Page 1 of 3 PagelD #: 138

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

BRUCE A. RUTHERFORD, #27006-078
VS.

UNITED STATES OF AMERICA

§
§
§
§
§

CIVIL ACTION NO. 4:19CV348
CRIMINAL ACTION NO. 4:17CR41(1)

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Pro se Movant Bruce Allen Rutherford filed a motion to vacate, set aside, or correct his
sentence pursuant to 28 U.S.C. § 2255, challenging his Eastern District of Texas, Sherman Division
conviction. The motion was referred to the undersigned United States Magistrate Judge for findings
of fact, conclusions of law, and recommendations for the disposition of the case pursuant to 28
U.S.C. § 636, and the Amended Order for the Adoption of Local Rules for the Assignment of Duties
to the United States Magistrate Judge.
MOTION FOR SUMMARY JUDGMENT
Movant filed a motion for summary judgment (Dkt. #21).

He argues that there are no

genuine issues of fact in dispute; thus, he is entitled to summary judgment. A motion for summary
judgment is not a proper method of adjudicating a motion brought pursuant to 28 U.S.C. § 2255.
See Browder v. Director, III. Dept, of Correction, 434 U.S. 257, 269, n.14 (1978); United States v.
Hurley, 2005 WL 1473828 n.5 (N.D. Tex 2005) (Not Reported in F. Supp.2d).

The Rules

Governing Section 2255 Proceedings for the United States District Courts (2255 Rules) do not
contemplate such a motion. Although Rule 12 permits a court to apply the Federal Rules of Civil
Procedure when appropriate, motions for summary judgment under Fed. R. Civ. P. 56 are not

1

Case 4:19-cv-00348-MAC-CAN Document 27 Filed 02/24/20 Page 2 of 3 PagelD #: 139

appropriate or necessary in the habeas context. This is especially true where the motion essentially
seeks the same relief as that sought in the underlying motion to vacate.
Additionally, the Court notes that Movant filed a motion for release pending the result of his
federal habeas corpus proceedings (Dkt. #26).

However, Movant has been adjudged guilty of a

criminal offense. His charges are no longer afforded the presumption of innocence, one of the
primary reasons for granting bond pending trial and direct appeals.

Even there, “[tjhere is no

absolute right to bail pending appeal.” Ballard v. Texas, 438 F.2d 640 (5th Cir. 1971).
For these reasons stated, the court should summarily deny the motions.
RECOMMENDATION
It is accordingly recommended that the motion for summary judgment (Dkt. #21) and the
motion for immediate release (Dkt #26) be DENIED.
Within fourteen days after service of the magistrate judge’s report, any party must serve and
file specific written objections to the findings and recommendations of the magistrate judge. 28
U.S.C. § 636(b)(l)( C).

To be specific, an objection must identify the specific finding or

recommendation to which objection is made, state the basis for the objection, and specify the place
in the magistrate judge’s report and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge
is not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from a failure to object See Douglass v. United Servs. Auto. Ass'n, 79 F.3d

2

Case 4:19-cv-00348-MAC-CAN Document 27 Filed 02/24/20 Page 3 of 3 PagelD #: 140

1415,1430(5thCir. 1996) (en banc), superceded by statute on other grounds, 28U .S.C. § 636(b)(1)
(extending the time to file objections from ten to fourteen days).
SIGNED this 24th day of February, 2020.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

3

